                             NATIONAL SCIENCE FOUNDATION
                                    4201 Wilson Boulevard
                                  ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL



MEMORANDUM

Date:          September 30, 2011

To:            Mary F. Santonastasso, Director
               Division of Institution and Award Support

               Karen Tiplady, Director
               Division of Grants and Agreements

From:          Dr. Brett M. Baker /s/
               Assistant Inspector General for Audit

Subject:       Audit Report No. OIG-11-1-020
               Cold Spring Harbor Laboratory

Attached is the final audit report, prepared by Williams, Adley & Co., an independent public
accounting firm, on the audit of NSF Award Numbers IOS-0333074, MCB-0501862, IOS-
0703908 and DBI-0923128 awarded to the Cold Spring Harbor Laboratory (CSHL). The audit
covers NSF-funded costs claimed from September 1, 2003 to March 31, 2011, totaling
approximately $12.05 million in costs claimed for the awards.

The auditors determined that the costs claimed on the awards are presented fairly, in all material
respects, and are allowable under the guidelines of the NSF awards and the American
Reinvestment and Recovery Act. The auditors also determined that CSHL adequately monitors
its subawards and has adequately addressed its prior year audit findings from the FY 2007 A-133
audit and the 2008 NSF Desk Review.

The auditors noted that approximately $90,000 in participant support costs, for two of three
awards, were unspent near the end of the award periods. Because of the restrictive nature of
participant support costs and the short time remaining to incur these expenditures, we identified
these costs as “at risk.” NSF requires that funds budgeted for participant costs be spent as
awarded. A change to the level of spending for these costs require approval by NSF before being
used for other purposes to ensure that the objectives of the awards are met. CSHL officials stated
that they are seeking an extension to the award period and a “repurposing” of the funds for one
award. The period of performance for the other award has been extended to June 2012.
The auditee agreed with the report and also noted new time and effort reporting activities they
state that they are implementing. CSHL’s response is included in its entirety in Appendix B.

We are providing copies of this memorandum to the responsible NSF Program and
Administrative Officials. The responsibility for audit resolution rests with the Division of
Institution and Award Support, Cost Analysis and Audit Resolution Branch (CAAR).
Accordingly, we ask that no action be taken concerning the report without first consulting CAAR
at 703-292-8244.

OIG Oversight of Audit

To fulfill our responsibilities under Government Auditing Standards, the Office of Inspector
General:

      •   Reviewed Williams, Adley’s approach and planning of the audit;
      •   Evaluated the qualifications and independence of the auditors;
      •   Monitored the progress of the audit at key points;
      •   Coordinated periodic meetings with Williams, Adley and NSF officials, as necessary, to
          discuss audit progress, findings, and recommendations;
      •   Reviewed the audit report, prepared by Williams, Adley to ensure compliance with
          Government Auditing Standards; and
      •   Coordinated issuance of the audit report.

Williams, Adley is responsible for the attached auditor’s report on the CSHL and the conclusions
expressed in the report. We do not express any opinion on the Schedules of Award Costs,
internal control, or conclusions on compliance with laws and regulations.

We thank your staff for the assistance that was extended to our auditors during this audit. If you
have any questions regarding this report, please contact Sherrye McGregor at 703-292-5003 or
Jannifer Jenkins at 703-292-4996.

Attachment

cc:       John C. Wingfield, BIO/OAD
          Parag R. Chitnis, BIO/MCB
          Judith A. Verbeke, BIO/ DBI
          Jane Silverthorne, BIO/ IOS




                                                2
       Cold Spring Harbor Laboratory
       Cold Spring Harbor, New York

             National Science Foundation
             Office of Inspector General



                 Award Numbers
IOS-0333074; MCB-050 1862; IOS-0703908; DBI-0923128



       Financial Audit of Financial Schedules and
             Independent Auditors' Report



      From September 1, 2003 to March 31, 2011




                   Audit Performed by:
                     Williams Adley
                   1030 15th Street NW
                     Suite 350 West
                  Washington, D.C. 20005
                                  EXECUTIVE SUMMARY

The National Science Foundation (NSF) Office of Inspector General (OIG), contracted with
Williams Adley to perform an audit on $12,049,384 in costs claimed as reported on the March
31,2010 and March 31, 2011 Federal Financial Report (FFR) submitted to NSF by Cold Spring
Harbor Laboratory (CSHL) on NSF award nwnbers IOS-0333074, MCB-0501862, IOS-0703908
and DBI -0923128.

Cold Spring Harbor Laboratory is a private not-for-profit research and education institution that
as of March 31, 2011 had 32 active NSF awards totaling over $26 million and NSF award
expenditures of $18,151,028. The four awards selected for audit were chosen by the NSF OIG
because of potential weaknesses in the internal controls over the financial and grant
administration of its NSF awards as identified in a 2008 NSF Desk Review Report. CSHL also
passes much of its NSF funding through to its sub-awardee institutions and expends a large
amount of funds in salaries, wages, and indirect costs. As a recipient under the American
Recovery and Reinvestment Act of 2009 (ARRA), CSHL has additional requirements to account
for, segregate and report its ARRA expenditures and activity.

The objective of this audit was to determine whether CSHL' s system of internal controls was
sufficient to ensure that, costs claimed by CSHL and its sub-awardees presents fairly in all
material respects, the costs claimed on the CSHL's Schedules of Award Costs; ARRA and non-
ARRA awards are adequately administered according NSF award and other Federal
requirements; CSHL adequately monitors its sub-awards; and recommendations, identified in
CSHL's 2007 OMB Circular A-133 and NSF's 2008 desk review, were satisfactorily addressed
and implemented.

For two of three awards with budgeted participant costs, we noted that $90,001 of participant
suppmt cost was unspent as of March 31, 2011. Based on the restrictive nature of participant
support costs and the time remaining in the performance period for each grant to incur these
expenditures, we identified these cost to be "at risk." According to CSHL management, one
grant's period of performance has been extended to June 30, 2012 and CSHL is seeking an
extension to the period of performance for this grant and a repurposing of the pa1ticipant support
costs.

For the period from inception to March 31, 2011 for all four grants, we audited $12,049,384 of
costs claimed by CSHL and its sub-awardees. We detennined that the costs claimed present
fairly in all material respects and are allowable under the guidelines of the NSF award and
ARRA regulations. We also determined that CSHL adequately monitors its subawards and has
adequately addressed its prior year audit findings from the FY 2007 A-133 audit and the 2008
NSF Desk Review recommendations. We noted no findings or exceptions.
                                                                           Table of Contents



INTRODUCTION             00   ooooo o oo o oooo ooo oooooooooooooooooooooooooo ooooo ooooooooooooo oo ooooooooooooo o oooooooooooooooooooooooooooooooooooooooooooooooooooooooooo                                                                                                      3

 BACKGROUND                   oo ooo oo o o o o oo oo O O OOOOOOOOOoOOOO o ooooo oooo ooo oo oooooooooo o ooooo o ooooo o ooooo oo ooooooooooooooOOOOooooo o ooo o o oo ooo oo o o oo o o o ooo o oooo o oo o oo o                                                                   4

 AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY                                                                                                   oo oo oooo oo ooooo o ooooooooooo o ooooo o ooo o oo oooooo oo o ooo ooooo                                       00 0 0 0 0 0 0 0 0 0     5

REPORTS   ooooo ooooooooooooo o Ooo o o o o ooo o o ooooooooooooo o oo o ooooo ooooo oooooo o oooo oo oooooooo o oo oooo o oooo o oo o o ooooooooooooooooo o ooooo ooo oooooooo ooo ooooooooooooooo                                                                                   7

 INDEPENDENT AUDITORS' REPORT ON FINANCIAL SCHEDULES                                                                                                                                           ooooooooooooooo o ooooooooooooooooooooooo o oo                                         8

 REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING AND                                                                                                                                                          0 0 0 0 0 0 0 0 0 00 0 0 0 00 0 0 0 0 0 0 0 0 0 0 0 0 0 0          10

 ON COMPLIANCE AND OTHER MATTERS BASED ON AN AUDIT OF                                                                                                                                                000000 00 000 0 00 0          oo o o o ooooooooooo o ooooo                      10

 FINANCIAL SCHEDULES PERFORMED IN ACCORDANCE WITH                                                                                                                                      ooooooooooooooooooooooo oooooooo ooooooooooooo                                                10

 GOVERNMENT AUDITIN"G                                     S T A N D A R D S o o o o ooooooooooooooooooooooo o ooooooooooooooooooooooooooooooOO o o oO OOO OO OOOOOOO o OO o oo o oo o o 1 0




APPENDIX A- SCHEDULES OF AWARD COSTS AND NOTES                                                                                                                  o oo oo o oo o oo oo o o ooooo oo o oo oo oo                00 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 00        12

APPENDIX B - AWARDEE'S COMMENTS TO REPORT                                                                                                 oooo o oo o oo oo ooooooooooooooooooooo o oo oo oooo o o oo ooooooooooooooo o oo o oo                                                      19

APPENDIX C - PRIOR REVIEW RECOMMENDATIONS AND AUDIT FINDINGS                                                                                                                                                                 0 0 0 0 0 0 0 0 0 0 0 0 0 00 0 0 0 0 0 0 0 0 0 0        22

APPENDIX D - EXIT BRIEFING                                    00000 0000   Oo   0 0 0 00 00 0 0 0 00 0 0 0 0 0 00 0 0 0 0   oo   0 0 0 0 00 0 0 0 0 00 0 0 0 0 0 00 0 0 0 0 0 00 0 0   oo   00 0 0 0 0 00 0 0 0 0 0 0 0 0   0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 0 00 0 0 0   o   0 0 0 0   25
INTRODUCTION




     3
BACKGROUND

Williams Adley & Company-De, LLP (Williams Adley) audited funds awarded by the National
Science Foundation (NSF) to Cold Sp1ing Harbor Laboratory (CSHL) under award numbers
IS0-0333074, MCB-0501862, IOS-0703908 and DBI-0923128, for the period September 1,
2003 through March 31, 2011 (as applicable). CSHL as a recipient of Federal funding is required
follow the administrative and cost principles specified in 2 CFR Part 215 (OMB Circular A-110)
Uniform Administrative Requirements for Grants and Agreements with Institutions of Higher
Educations, Hospitals, and Other Non-Profit Organizations; 2 CFR Part 230 (OMB CircuJar A-
122) Cost Principles for Non-Profit Organizations and Federal audit requirements in OMB
Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations.

Cold Spring Harbor Laboratory is a private not-for-profit research and education institution with
6 facilities located on New York's Long Island. Since 1890, CSHL has provided a wealth of
education and research opportunities. CSHL currently conducts scientific investigations in the
areas of Cancer, Neuroscience, Plant Biology, Quantitative Biology, and Bio informatics &
Genomics. CSHL has more than 1,105 employees and students working and leaming at its
facilities. In March 2011 , CSHL had 32 active NSF awards totaling over $26 million and NSF
award expenditures of$18,151 ,028.

A description ofthe four NSF awards audited is as follows:

   1. Award IOS-0333074- YIA: Genomics of Rice, Sorghum and Maize- NSF awarded
      Continuing Grant Award No. IOS-0333074 to Cold Spring Harbor Laboratory for the
      period :fJ:mn September 1, 2003 to August 31, 2009 in the amount of $1,355,076. NSF
      funds were used to further research in gene colinearity and the evolutionruily conserved
      order along the chromosomes of genes among different species. This grant also provided
      funds for research experiences for undergraduates and research opportunity awards. Cold
      Spring Harbor Laboratory was solely responsible for the operation of this grant.
      Cumulative disbursements for award number IOS-0333074 repmted to NSF through
      March 31 , 2010 were $1,347,269 (99% of the grant funding).

   2. Award MCB-0501862- Characterizing Sub-Cellular Compartments in Maize Using
      Fluorescent Protein Tagged Lines- NSF awru·ded Continuing Grant MCB-0501862- to
      Cold Spring Harbor Laboratory for the period from July 1, 2005 to June 30, 2011 in the
      amount of $5,028,244. NSF funds were used to further research to identify proteins
      critical to understanding the developmental and physiological process of maize, in order
      to improve crops. Tins grant was a cooperative effort between Cold Spring Harbor
      Laboratory, The Institute for Genomic Reseru·ch cmTently known as J. Craig Venter
      Institute, and the University of Wyoming. Cumulative disbursements for award number
      MCB-0501862 reported to NSF through March 31,2011 were $4,910,499.

   3. Award IOS-0703908- Gramene: A Platform for Comparative Plant Genom.ics-
      NSF awarded Continuing Grant IOS-0703908 to Cold Spring Harbor Laboratory for the
      period from October 1, 2007 to September 30, 2011 in the amount of $6,944,880. NSF


                                               4
       funds were used to build and maintain the Gramene database (http://www.gramene.org).
       The Gramene database is an online resource tool developed to house information
       resources developed and being developed, through genornics efforts and key elements to
       advance the fundamental knowledge bases for a future bio- based economy. Tllis project
       is a collaborative effort between Cold Spring Harbor Laboratory, Cornell University and
       the University of Oregon. Cumulative disbursements for award number IOS-0703908
       reported to NSF through March 31, 2011 were $4,792,363.

   4. Award DBI-0923128 - MRI: Acquisition of Next Generation Sequencers- NSF
      awarded Grant DBI-0923128 from its Ame1ican Reinvestment and Recovery Act of
      2009 (ARRA) funding for the period September 1, 2009 to August 31, 2012 in the
      amount of $999,253. NSF funds were used to create a "next generation" sequencing
      center dedicated to plant genornics. The grant was primarily an equipment grant used to
      purchase a DNA sequencer and computer equipment for data analysis and storage.
      Cumulative disbursements for award number DBI-0923128 reported to NSF through
      March 31,2011 were $999,253 (100% ofthe grant funding).



AUDIT OBJECTWES, SCOPE, AND METHODOLOGY

The objectives of our audit were to:

    1. Determine whether CSHL's system of internal control over administering its NSF
       American Recovery and Reinvestment Act (ARRA) and non-ARRA awards is adequate
       to account for and ensure compliance with applicable OMB Circular and NSF award
       requirements.

   2. Identify and report instances of noncompliance with laws, regulations, and the provisions
      of the award agreement(s) and wealmesses in CSHL's internal controls over compliance
      and financial reporting that could have a direct and material effect on the Schedules of
      Award Costs and CSHL's ability to properly administer, account for, and manage its NSF
      awards.

   3. Determine and repo1t on whether the Schedules of Award Costs of CSHL presents fairly,
      in all material respects, the costs claimed on the Federal Cash Transactions
      Reports/Federal Financial Reports and cost share in conformity with NSF-OIG's
      Financial Audit Guide and the te1ms and conditions of the NSF ARRA and non-ARRA
      awards.

   4. Determine and rep01t on whether CSHL adequately monitors its sub-awards.

   5. Determine if CSHL developed and executed a plan to address and implement
      recommendations identified in the CSHL's 2007 OMB Circular A-133 audit and NSF's
      2008 desk review.


                                              5
   6. Determine whether CSHL properly accounts for and segregates its ARRA funded award
      from its non-ARRA funded awards in its accounting system.

   7. Determine whether CSHL provided accurate and timely ARRA quarterly reporting under
      ARRA for NSF Award No. DBI-0923128.

Williams Adley conducted the audit in accordance with the standards applicable to financial
audits contained in Government Auditing Standards (GAGAS); 2007 Revision, issued by the
Comptroller General of the United States and the provisions of the National Science Foundation
OIG Audit Guide. We also complied with the most current AICPA financial audit standards,
including the Statements on Auditing Standards (SAS) 62, 99, 102 through 116. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the
amounts claimed to the National Science Foundation in the Schedules of Award Costs are free of
material misstatements. An audit includes examining, on a test basis, evidence supporting the
amounts and disclosures in the Schedules of Award Costs. An audit also includes assessing the
accounting principles used and significant estimates made by Cold Spring Harbor Laboratory, as
well as evaluating the overall financial schedule presentation. We believe that our audit provides
a reasonable basis for our opinion which is stated in the independent audHor's report on financial
schedules.




                                                6
REPORTS




   7
~l
l!
     f.,
       1.
             WILLIAMS
             ADLEY


         INDEPENDENT AUDITORS' REPORT ON FINANCIAL SCHEDULES


National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230


We have audited the costs claimed by Cold Spring Harbor Laboratory to the National Science
Foundation (NSF) on the Federal Financial Reports for the NSF awards listed below. The
Federal Financial Reports as presented in the Schedules of Award Costs (Schedules A-1 , A-2, A-
3, and A-4) are the responsibility of Cold Spring Harbor Laboratory's management. Our
responsibility is to express an opinion on the Schedules of Award Costs based on our audit.

Award Number                  A ward Period                           Audit Pe1iod
IOS-0333074      September 1, 2003 to August 31, 2009     September 1, 2003 to March 31,2010
MCB-0501862      July 1, 2005 to June 30, 2011            July 1, 2005 to March 31, 2011
IOS-0703908      October 1, 2007 to September 30, 2011    October 1, 2007 to March 31 , 2011
DBI-0923128      September 1, 2009 to August 31,2012      September 1, 2009 to March 31, 2011

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America, the standards applicable to fmancial audits contained in Government Auditing
Standards (2007 Revision) issued by the Comptroller General of the United States, and guidance
provided in the NSF OIG Audit Guide (August 2007), as applicable. Those standards and the
NSF OIG Audit Guide require that we plan and perform the audit to obtain reasonable assurance
about whether the amounts claimed to the National Science Foundation as presented in the
Schedules of Award Costs (Schedules A-1. A-2, A-3, and A-4) are free of material misstatement.
An audit includes examining, on a test basis, evidence supporting the amounts and disclosures in
the Schedule of Award Costs. An audit also includes assessing the accounting principles used
and significant estimates made by Cold Spring Harbor Laboratory's management, as well as
evaluating the overall financial schedule presentation. We believe our audit provides a
reasonable basis for our opinion.

In our opinion, the Schedules of Award Costs referred to above present fairly, in all material
respects, the costs claimed on the Federal Financial Reports for the period September 1, 2003 to
March 31, 2011 , in conformity with the NSF OIG Audit Guide, NSF Grant Policy Manual, terms
and conditions of the NSF awards and on the basis of accounting described in the Notes to the

                            WILLIAMS, ADLEY & COMPANY-DC, LLP
                    Management Consultants/Certified Public Accountants
1030 15th Street, NW, Suite 350 • Washington, DC 20005 • (202) 371-1397 • Fax: (202) 371 -9161
                                               8
 Financial Schedules, which is a comprehensive basis of accounting other than generally
accepted accounting principles in the United States of Amelica (GAAP). These schedules are not
intended to be a complete presentation of financial position of Cold Spring Harbor Laboratory in
conformity with accounting principles generally accepted in the United States of America.

In accordance with Government Auditing Standards and the NSF OIG Audit Guide we have also
issued a report dated July 11 , 2011 , on our consideration of Cold Spring Harbor Laboratory's
internal control over financial reporting and our tests of Cold Spting Harbor Laboratory's
compliance with certain provisions of laws regulations, and NSF award tenns and conditions and
other matters. The purpose of that report is to desc1ibe the scope of our testing of internal
controls over financial reporting and compliance and results of that testing, and to provide an
opinion on the internal control over financial reporting or on compliance. That rep01t is an
integral prut of an audit preformed in accordance with Government Auditing Standards and
should be considered in assessing the results of our audit.

This report is intended solely for the information and use of Cold Spring Harbor Laboratory
management, the National Science Foundation, Cold Spting Harbor Laboratory' s cognizant
Federal audit agency, the Office of Management and Budget, and the Congress of the United
States and is not intended to be an should not be used by anyone other than these specified
parties.




WiLl\~ ilJ~                 '
                            z   Co~Y11A-":l:>c) LLf
Washington, U.C.       ()   l         V    U
July 11, 2011




                                               9
~'
l!
     'A
      .1 WILLIAMS
       j.ADLEY

     REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING AND
       ON COMPLIANCE AND OTHER MATTERS BASED ON AN AUDIT OF
        FINANCIAL SCHEDULES PERFORMED IN ACCORDANCE WITH
                  GOVERNMENT AUDITING STANDARDS


National Science Foundation
Office of Inspector General
4201 Wilson Boulevard
Arlington, Virginia 22230

We have audited costs claimed as presented in the Schedules of Award Costs (Schedules A- 1, A-
2, A-3 and A-4), which summarize the financial reports submitted by Cold Spting Harbor
Laboratory (CSHL) to the National Science Foundation (NSF) for the awards and periods listed
below and have issued our report thereon dated July 11, 2011.

Award Number                  Award Period                          Audit Period
IOS-0333074      September 1, 2003 to August 31, 2009 September 1, 2003 to March 31, 2010
MCB-0501862      July 1, 2005 to June 30, 2011         July 1, 2005 to March 31 , 2011
IOS-0703908      October 1, 2007 to September 30, 2011 October 1, 2007 to March 31, 2011
DBI-0923128      September 1, 2009 to August 31,2012 September 1, 2009 to March 31, 2011

We conducted our audit of the Schedules of Award Costs as presented in Schedules A-1 , A-2, A-
3, and A-4 in accordance with auditing standards generally accepted in the United States of
America, the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States (2007 revision), and the
guidance provided in the NSF OJG Audit Guide (August 2007), as applicable.


INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and performing om audit of the Schedules of Award Costs (Schedules A-1 , A-2, A-3
and A -4) for the period September 1, 2003 to March 31, 2011, we considered Cold Spring
Harbor Laboratory's internal control over financial reporting as a basis for designing our
auditing procedures for the pmpose of expressing our opinion on the financial schedules, but not
for the purpose of expressing an opinion on the effectiveness of Cold Spting Harbor
Laboratory's internal control over financial repmting. Accordingly, we do not express an

                            WILLIAMS, ADLEY & COMPANY-DC, LLP
                    Management Consultants/Certified Public Accountants
1030 15th Street, NW, Suite 350 • Wash ington, DC 20005 • (202) 371 -1397 • Fax: (202) 371-9161

                                              10
opinion on the effectiveness of Cold Spring Harbor Laboratory's internal control over financial
reporting. A deficiency in internal control exists when the design or operation of a control does
not allow management or employees, in the normal course of performing their assigned
functions, to prevent, or detect and correct misstatements on a timely basis. A material weakness
is a deficiency, or a combination of deficiencies, in internal control such that there is a
reasonable possibility that a material misstatement of the entity's financial statements will not be
prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose
described in the first paragraph of this section and was not designed to identify all deficiencies in
internal control over financial reporting that might be deficiencies, significant deficiencies or
material weaknesses. We did not identify any deficiencies in internal control over financial
reporting that we consider to be material weaknesses, as defined above. A significant deficiency
is a deficiency, or a combination of deficiencies, in internal control that is less severe than a
material wealrness, yet important enough to merit attention by those charged with governance.
We did not identify any deficiencies that we consider to be significant.


COMPLIANCE AND OTHER MATTERS

As part of obtaining reasonable assurance about whether Cold Spring Harbor Laboratory' s
financial schedules are free of material misstatement, we performed tests of Cold Spring Harbor
Laboratory's compliance with certain provisions of applicable laws, regulations, and NSF award
terms and conditions, noncompliance with which could have a direct and material effect on the
determination of financial schedule amounts. However, providing an opinion on compliance
with those provisions was not an objective of our audit, and accordingly, we do not express such
an opinion. The results of our tests of compliance did not disclose instances of noncompliance
that are required to be reported under Government Auditing Standards and the National Science
Foundation OIG Audit Guide.

This report is intended solely for the information and use of Cold Spring Harbor Laboratory's
management, the National Science Foundation, Cold Spring Harbor Laboratory' s cognizant
Federal audit agency, the Office of Management and Budget, and the Congress of the United
States and is not intended to be, and should not be used by anyone other than these specified
parties.


/tO~ll~o.rrs_~ Pd~          '£-   Co~Yl_j-~' LL-f
Washington, D.C.         0 \            ~
July 11, 2011




                                                 11
APPENDIX A- SCHEDULES OF AWARD COSTS AND NOTES




                      12
                                                                                                                                                Schedule A-1


                                                            Cold Spring Harbor Laboratory
                                                  National Science Foundation Award No. IOS-0333074
                                                                Schedule of Award Costs
                                                   Award Period: September 1, 2003- August 31, 2009
                                                   Audit Period: September 1, 2003 -March 31, 2010
                                                                         Final

                                                                              Claimed Costs                                           Cost Claimed After
             Cost Category                      Approved Budget                                          Reclassifications
                                                                                   (A)                                                 Reclassification

 Direct Costs:
   Salaries and wages                      $
   Fringe benefits
   Equipment
   Travel
   Participant support

 Other Direct Costs:
   Materials and supplies
   Publication costs
   Consultant services
   Computer services
   Subcontracts
   Other costs

 Total Direct Costs                        $

 Indirect Costs
 Total Direct and Indirect Costs           $

(A)- The total claimed costs agree with the total expenditures reported by Cold Spring Harbor Laboratory on the Federal Financial Report as of the quarter
ended March 31, 2010. Claimed costs reported above are based on the cost ledgers prepared by Cold Spring Harbor Laboratory's books of accounts.

See accompanying notes to Schedule of Award Costs

                                                                              13
                                                                                                                                                Schedule A-2


                                                           Cold Spring Harbor Laboratory
                                                 National Science Foundation Award No. MCB-0501862
                                                                Schedule of Award Costs
                                                       Award Period: July 1, 2005- June 30, 2011
                                                      Audit Period: July 1, 2005 -March 31 , 2011
                                                                        Interim

                                                                             Claimed Costs                                           Cost Claimed After
             Cost Category                      Approved Budget                                        Reclassifications
                                                                                  (A)                                                 Reclassification

 Direct Costs:
   Salaries and wages                     $
   Fringe benefits
   Equipment
   Travel
   Participant support

 Other Direct Costs:
   Materials and supplies
   Publication costs
   Consultant services
   Computer services
   Subcontracts
   Other costs

 Total Direct Costs                       $               3,858,750    $            3,846,476     $                        -   $                   3,846,476

 Indirect Costs
 Total Direct and Indirect Costs          $

(A)- The total claimed costs agree with the total expenditures reported by Cold Spring Harbor Laboratory on the Federal Financial Report as of the quarter
ended March 31, 2011. Claimed costs reported above are based on the cost ledgers prepared by Cold Spring Harbor Laboratory's books of accounts.

See accompanying notes to Schedule of Award Costs

                                                                              14
                                                                                                                                                Schedule A-3


                                                            Cold Spring Harbor Laboratory
                                                  National Science Foundation Award No. IOS-0703908
                                                                Schedule of Award Costs
                                                  Award Period: October 1, 2007- September 30, 2011
                                                    Audit Period: October 1, 2007 -March 31, 2011
                                                                        Interim


                                                     Approved Budget            Claimed Costs (A)              Reclassifications         Cost Claimed After
             Cost Category
                                                                                                                                            Reclassification

 Direct Costs:
   Salaries and wages                        $
   Fringe benefits
   Equipment
   Travel
   Participant support

 Other Direct Costs:
   Materials and supplies
   Publication costs
   Consultant services
   Computer services
   Subcontracts
   Other costs

 Total Direct Costs                          $                5,618,850    $              3,733,739    $                         -   $              3,733,739

 Indirect Costs
 Total Direct and Indirect Costs             $

(A) - The total claimed costs agree with the total expenditures reported by Cold Spring Harbor Laboratory on the Federal Financial Report as of the quarter
ended March 31, 2011. Claimed costs reported above are based on the cost ledgers prepared by Cold Spring Harbor Laboratory's books of accounts.

See accompanying notes to Schedule of Awards Costs


                                                                               15
                                                                                                                                                Schedule A-4


                                                          Cold Spring Harbor Laboratory
                                             National Science Foundation Award No. DBI-0923128 ARRA
                                                               Schedule of Award Costs
                                                  Award Period: September 1, 2009- August 31 2012
                                                  Audit Period: September 1, 2009- March 31, 2011
                                                                       Interim

                                                                                Claimed Costs                                           Cost Claimed After
             Cost Category                         Approved Budget                                         Reclassifications
                                                                                     (A)                                                 Reclassification

Direct Costs:
  Salaries and wages                         $
  Fringe benefits
  Equipment
  Travel
  Participant support

Other Direct Costs:
  Materials and supplies
  Publication costs
  Consultant services
  Computer services
  Subcontracts
  Other costs

Total Direct Costs                           $                 999,253     $             999,253    $                          -   $                  999,253

Indirect Costs
Total Direct and Indirect Costs              $

(A)- The total claimed costs agree with the total expenditures reported by Cold Spring Harbor Laboratory on the Federal Financial Report as of the quarter
ended March 31 , 2011 . Claimed costs reported above are based on the cost ledgers prepared by Cold Spring Harbor Laboratory's books of accounts.

See accompanying notes to Schedule of A ward Costs

                                                                               16
                               Cold Spring Harbor Laboratory
                               Notes to the Financial Schedules

                          From September 1, 2003 to March 31 , 2011


Note 1:        Summary of Significant Accounting Policies

Accounting Basis
The accompanying fmancial schedules have been prepared in conformity with National Science
Foundation (NSF) instructions, which are based on a comprehensive basis of accounting other
than generally accepted accounting principles. Schedules A-1, A-2, A-3 and A-4 have been
prepared by Cold Spring Harbor Laboratory from the Federal Financial Reports (FFRs)
submitted to NSF and Cold Spring Harbor Laboratory's accounting records. The basis of
accounting utilized in preparation of these reports differs from generally accepted accounting
principles. The following information summarizes these differences:

1. Equity
   Under the tetms of the awards, all funds not expended according to the award agreements
   and budgeted at the end of the award period are to be returned to NSF. Therefore, the
   awardee does not maintain any equity in the award and any excess cash received from NSF
   over final expenditures is due back to NSF.

2. Inventory
   Minor materials and supplies charged to expense during the period of purchase. As a result,
   no inventory is recognized for these items in the financial schedules.

3. Equipment
   Equipment purchased with NSF funds is expensed at cost in the period during which it is
   purchased instead of being recognized as an asset and depreciated over its useful life.
   Accounting p1inciples generally accepted in the United States of America require that
   equipment be capitalized and depreciated over its useful life. As a result, the expenses
   reflected in the Schedules of Award Costs include the costs of equipment purchased during
   the period rather than a provision for depreciation. The capitalization and depreciation of the
   costs of equipment is reflected on Cold Spring Harbor Laboratory's own financial statements
   which are not subject to our audit.

   Except for awards with nonstandard terms and conditions, title to equipment under NSF
   awards vests in the recipient, for use in the project or program for which it was acquired, as
   long as it is needed. The recipient may not encumber the property without approval of the
   federal awarding agency, but may use the equipment for its other federally sponsored
   activities, when it is no longer needed for the original project.

4. Income Taxes
   Cold Spring Harbor Laboratory is exempt from federal income taxes under Section 501(c)
   (3) of the Internal Revenue Code.


                                               17
 Note 1:       Summary of Significant Accounting Policies (Continued)

4. Income Taxes (continued)

   The departure from generally accepted accounting principles allows NSF to properly monitor
   and track actual expenditures incurred by Cold Spring Harbor Laboratory. The departure
   does not constitute a material weakness in intemal controls.

Note 2:    Indirect Cost Rates

Cold Spting Harbor Laboratory's indirect cost rate is negotiated with the Department of Health
and Human Services. The rate is a final rate which is applied to the base of modified total direct
costs:

     Award Number          Indirect Cost Rate                         Base
                             For 9/1/2003 -
                               3/31/2011


      IOS-0333074




     MCB-0501862




      IOS-0703908




      DBI-0923128




                                                18
APPENDIX B -AWARDEE'S COMMENTS TO REPORT




                 19
                                                                                         APPENDIXB




       Cold Spring Harbor Laboratory
       One Bungtown Road
       Cold Spring Harbor, New York 11724




.,.....
Williams, Adley and Company
1030 151h Street, NW, Suite 350
                                                                     September 19, 2011




Washington, D.C. 20005

Dear Ms. Duckett:

Thank you for providing us with the opportunity to review and comment on the draft
National Science Foundation (NSF) Office of Inspector General (OIG) Audit Report of
Cold Spring Harbor Laboratory (CSHL). We were pleased to host representatives from
your firm that participated in the site visit and to work with Michelle, Phyllis, and Juan
along with representatives of the NSF during the data collection and evaluation process.

We are pleased with the outcome of the audit which noted no findings or exceptions.
The report concluded that the costs claimed for all four grants from inception to March
31, 2011, totaling $12,049,384, are presented fairly in all material respects and are
allowable under the guidelines of the NSF award and ARRA regulations. The additional
determinations that CSHL adequately monitors its subawards and has adequately
addressed prior year recommendations from the FY 2007 A-133 audit and the 2008
NSF Desk Review are also welcomed conclusions.

Our review of the draft report identified a few suggested changes which we have
highlighted using track changes in the attached document. We also have revised the
description of our institutional research in the background section to more accurately
reflect our current research efforts.

Please note that we strongly recommend that the conclusions drawn by the 2008 NSF
Desk Review, that was conducted by the firm Booz Allen and Hamilton and accepted by
the NSF, be correctly reflected in the final OIG report. The NSF Desk report noted
concerns, not findings that were characterized in a communication to CSHL by Ms.
Rosalind Jackson-Lewis from the NSF (see attached email) as minor, that our
organization should review and address as appropriate. Most all of the issues were
based on the perceived need to have better documented policies and procedures,
which CSHL now has. It is of concern that the draft OIG report refers to these minor
concerns as findings. We feel that this representation does not reflect the Desk Review
documentation that was provided to CSHL and respectfully request that the OIG report
be modified to better represent the 2008 Desk Review conclusions that minor concerns
were noted and not findings.




                                        www.cshl.edu



                                              20
                                                                                        APPENDIXB




We would like to take this opportunity to update you and the NSF on the status of our
efforts to enhance CSHL's Time & Effort Reports and reporting capabilities. A new
version of the Time and Effort Report has been created that reflects the complete 100%
distribution of each scientific staff member's activities and that of all of their direct
reports. The new Time and Effort Report is currently being tested by a select group of
Principal Investigators that will review August 2011 time and effort information. Based
on Principal Investigator feedback, the report will then be finalized and immediately
rolled out to the remaining CSHL Principal Investigators.

We appreciate the opportunity to work with you and the NSF to help ensure the proper
stewardship of Federal research funds.

Please contact us if you have any immediate questions.


Sincerely,




Encl.




                                             21
APPENDIX C -PRIOR REVIEW RECOMMENDATIONS
AND AUDIT FINDINGS




                 22
                                                                                            APPENDIXC


                 Finding                                                Status
Finding from the fiscal year 2007 A-133 audit:
1. Contributions Revenue and               Resolved
   Receivables-Insufficient reconciliation
   between the fund raising and accounting Based on our review, we noted that this finding was not
   system.                                  related to federal awards or projects funded by the NSF.
                                           According to CSHL personnel the Finance Department has
                                            implemented policies and procedures to ensure that all
                                           pledges and contributions are properly recorded in the
                                            accounting system and reflected on the Financial
                                            Statements. Also, based on our review of the FY 2008 A-
                                            133 audit report and inquiry of CSHL's A-133 auditors we
                                           noted that the status of this fmding was documented as
                                           resolved.

Concerns from the 2008 NSF Desk Review :
1. Cold Spring Harbor Laboratory does not Resolved
   have an accounting manual.
                                          Based on our review, we noted that CSHL has established
                                          a number of policies and procedures and desk references
                                          to instruct employees on the handling of fmancial
                                          transactions. According to CSHL the number of policies
                                          and procedures documented are too numerous to be
                                          combined into one hard copy manual thus the policies and
                                          procedures are readily available to employees through the
                                          intranet. We reviewed the various procedures noting that
                                          they appeared comprehensive.

2.   Cold Spring Harbor Laboratory lack of       Resolved
     established guidelines or procedures to
     assist employees in charge of federal       Based on our review, we determined that CSHL
     award administration to determine           implemented a policy entitled "Expenditure Approval
     reasonableness, allocability and            Policy for Sponsored Research Projects/Awards" in which
     allowablity of cost charged to NSF          the terms reasonableness, allocability, consistency and
     Awards.                                     conformance are defmed. The policy also includes
                                                 procedures for requesting goods and services including a
                                                 review to be performed by the Office of Sponsored
                                                 Programs to ensure that the purchase is allowable under
                                                 the grant. CSHL also implemented a "Policy and
                                                 Procedure on Allowable and Unallowable Costs". This
                                                 policy and procedure defines critetia for allowable and
                                                 unallowable cost and procedures for review of expenses
                                                 by the Principal Investigator and the Office of Sponsored
                                                 Programs.

3. CSHL's time and effort reporting did          Continuing
   not reflect an adequate or complete
   distribution of the employees ' activities.   Based on our review we determined that CSlll/ s effort
                                                 reporting system does reflect a complete distribution of
                                                 employees' activities. However, it does not present the full


                                                     23
                                            APPENDIXC


distribution on a single document by employee. Each
Principal Investigator (PI) receives an effort report that
includes all personnel working for them. The PI can only
review and cet1ify the effort performed under their project.
We were able to perform alternative procedures to obtain
sufficient evidence for our report through review of the
system controls and obtaining all effort reports related to
the personnel that we tested.

Additionally, CSHL has developed a new eff011 report
within Lawson (accounting system) that will provide
100% of the each person' s effort in one place. This rep011
will be distributed to each PI and will include the full
distribution (100%) of all personnel for whom they are
considered the direct supervisor, as well as the allocable
portion of all personnel who are supervised by a different
PI. This rep011 was in the testing phase during our audit
period and was being reviewed by a select group of
Principal Investigators. Based on Principal Investigator
feedback, the report will then be finalized and immediately
rolled out system wide at the time of our fieldwork.




    24
APPENDIX D - EXIT BRIEFING




            25
                                                                                  APPENDIXD


EXIT BRIEFING



We conducted an exit briefing on June 28, 2011 at Cold Spring Harbor Laboratory in Cold Spring Harbor,
New York.     We discussed preliminary findings and recommendations noted during the audit.
Representing Cold Spring Harbor Laboratory were:



     Name                                Title




Representing Williams Adley were:



     Name                        Title




                                                 26
        HOW TO CONTACT

THE OFFICE OF INSPECTOR GENERAL



              Internet

          www.oig.nsf.gov



           Email Hotline

             oig@nsf.gov



             Telephone

            703-292-7100



              Toll-free

           1-800-428-2189



                 Fax

            703-292-9158



                 Mail

      Office of Inspector General

     National Science Foundation

    4201 Wilson Blvd., Suite 1135

         Arlington, VA 22230




                  27
